Executive Summary
Table of Contents




                    Federal
                    Employees’
                    Compensation
                    Act Reform
Observations




                    White Paper
                    Report Number
                    HR-WP-14-003 – R

                    August 20, 2014
Appendices




                                       Print
Executive Summary
Table of Contents




                    Executive                                    Enacted in 1916, the Federal Employees’ Compensation Act
                                                                 (FECA) provides medical, compensation, death, and vocational
                                                                                                                                                    Postal Service management calculated workers’ compensation
                                                                                                                                                    expenses to be significantly higher at about $1.163 per
                    Summary                                      rehabilitation benefits to civilian federal employees who sustain
                                                                 injuries — including occupational disease — because of their
                                                                                                                                                    employee hour for FY 2013.

                                                                 employment with the federal government. The U.S. Congress                          The Postal Service paid about $1.3 billion in workers’
                                                                 amended FECA in 1974 to provide continuation of pay1 (COP),                        compensation claims and $67 million in administrative fees in
                                                                 authorize employees to select their own physicians, and                            chargeback4 year 2013. In addition, as of June 30, 2014, the
                       The Postal Service paid about             eliminate reduced benefits after age 70. Since then, Congress                      estimated workers’ compensation liability was about $17.8 billion;
                                                                 has not significantly reformed FECA.                                               and as of June 2013, the Postal Service had about 16,380
                             $1.3 billion in workers’
                                                                                                                                                    disabled employees on the periodic roll.5 To address declining
                          compensation claims and                The U.S. Department of Labor (DOL) Office of Workers’                              revenue and mail volume, the Postal Service has successfully
Observations




                                                                 Compensation Programs has the exclusive authority                                  decreased its number of employees from 765,088 in 2008 to
                    $67 million in administrative fees           to administer, implement, and enforce FECA. The DOL                                617,714 in 2013 through attrition and retirement incentives.
                                                                 compensates providers, claimants, and beneficiaries. The                           Despite the Postal Service’s efforts to decrease the number of
                           in chargeback year 2013.
                                                                 U.S. Postal Service later reimburses the DOL for all workers’                      employees, its workers’ compensation costs have increased
                                                                 compensation claims, including administrative fees, through a                      35 percent.
                                                                 process known as “chargeback billings.”
                                                                                                                                                    The higher workers’ compensation expense could be
                                                                 The U.S. Bureau of Labor Statistics calculates private industry                    attributed to a number of factors, including: (1) the reduced
                                                                 workers’ compensation costs per employee workhour as 73                            number of light/limited duty positions available because of
                                                                 cents2 for the production, transportation, and material moving                     automation and lower mail volume; (2) an older workforce,
                                                                 occupational group, which is the occupational category most                        which experience greater impairments from injuries and take
                                                                 aligned with postal workers.                                                       longer time to recover; and (3) increased costs due to cost of
Appendices




                                                                                                                                                    living adjustments. In addition, workers’ compensation fraud is

                                                                                                                                                    3	 Workers’ compensation cost per workhour calculated using fiscal year (FY) 2013
                                                                 1	 COP provides claimants with a continuation of their regular pay for up to 45       expenses and total workhours.
                                                                    calendar days of wage loss due to disability and/or medical treatment after a   4	 Claims the DOL pays on behalf of Postal Service employees and the assessed
                                                                    job-related injury or illness.                                                     adminisrative fee for the period July 2012 through June 2013.
                                                                 2	 U.S. Bureau of Labor Statistics: Employer Costs For Employee Compensation       5	 Employees who are receiving workers’ compensation benefits and have
                                                                    News Release, September 2013.                                                      disabilities that are expected to be permanent or prolonged (60-90 days).
                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                                                  Print                                                 1
Executive Summary
Table of Contents




                                                                 costly to the Postal Service. In FYs 2012 and 2013, U.S. Postal
                                                                 Service Office of Inspector General special agents obtained


                                                                                                                                   From 2008 – 2013
                                                                 $51.9 million in medical and disability judgments and halted
                             In FYs 2012 and 2013,
                                                                 future workers’ compensation losses of $289.7 million.
                        OIG special agents obtained
                                                                 The Postal Service has limited cost containment options without
                        $51.9 million in medical and             legislative changes to FECA. To control workers’ compensation
                                                                 costs, FECA reform should include practices used in state
                     disability judgments and halted             government and the private sector, such as:
                      future workers’ compensation                                                                                       The Postal Service has
                                                                 ■■ Limits on the duration and amount of benefits.
                                                                                                                                         decreased the number
Observations




                           losses of $289.7 million.
                                                                 ■■ Settlements and buyouts.                                             of employees, through
                                                                 ■■ Employer-selected physicians.                                        attrition and retirement
                                                                                                                                         incentives, from about
                                                                 ■■ Return to work and rehabilitation programs.
                                                                                                                                         765,000 in 2008 to about
                                                                 ■■ Generic drug requirements.                                           618,000 in 2013, a
                                                                                                                                         decrease of

                                                                                                                                                     19
                                                                 In addition, reform should include collection of COP in cases
                                                                 involving third-party liabilities, changes to the assessment of
                                                                 administrative fees, and the use of predictive modeling and                               %
                                                                 nurse case managers. However, there are political, employee,            	
Appendices




                                                                 and union considerations that could make it challenging to
                                                                 amend FECA to include these reforms. If these changes
                                                                                                                                     Hover over the letter carrier…
                                                                 could be adopted, these significant workers’ compensation
                                                                 costs would become much more in line with those of state
                                                                 governments and the private sector.

                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                             Print                    2
Executive Summary
                    Transmittal Letter


                                                                 August 20, 2014		

                                                                 MEMORANDUM FOR:	          ROSEMARIE FERNANDEZ
                                                                 				                      VICE PRESIDENT, EMPLOYEE RESOURCE
                                                                 				                      MANAGEMENT
Table of Contents




                                                                                                E-Signed by Janet Sorensen
                                                                                           VERIFY authenticity with eSign Desktop


                                                                 				
                                                                 FROM: 			 Janet M. Sorensen
                                                                 				      Deputy Assistant Inspector General
                                                                 				       for Revenue and Resources

                                                                 SUBJECT: 			              White Paper – Federal Employees’ Compensation
                                                                 				                      Act Reform (Report Number HR-WP-14-003 – R)

                                                                 Attached are the results of our review of the U.S. Postal Service’s Workers’
                                                                 Compensation Program Follow-Up: Federal Employees’ Compensation Act (FECA)
                                                                 Reform (Project Number 14YG009HR000). Workers’ compensation is a significant
Observations




                                                                 component of the Postal Service’s personnel costs. This white paper provides a
                                                                 summary of FECA reform proposals and an update on Workers’ Compensation
                                                                 Program costs and liabilities.

                                                                 If you have any questions or need additional information, please contact Monique P.
                                                                 Colter, director, Human Resources and Support, or me at 703-248-2100.

                                                                 Attachment

                                                                 cc:	   Corporate Audit and Response Management
Appendices




                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                    Print              3
Executive Summary
                    Table of Contents
                                                                 Cover
                                                                 Executive Summary......................................................................................1
                                                                 Transmittal Letter...........................................................................................3
                                                                 Observations.................................................................................................5
                                                                  Introduction.................................................................................................5
                                                                  Federal Employees’ Compensation Act......................................................7
                                                                  Federal Employees’ Compensation Act Reform ........................................7
Table of Contents




                                                                    Maximum Time and Benefit Limits...........................................................8
                                                                    Settlements and Buyouts.........................................................................8
                                                                    Employer-Selected Physicians.................................................................8
                                                                    Return to Work and Rehabilitation ..........................................................9
                                                                    Generic Drugs..........................................................................................9
                                                                    Third-Party Liability...................................................................................9
                                                                    Administrative Fees..................................................................................9
                                                                    Predictive Modeling................................................................................10
                                                                    Nurse Case Managers........................................................................... 11
                                                                  Challenges................................................................................................ 11
                                                                 Appendix A: Workers’ Compensation Costs................................................12
Observations




                                                                 Contact Information.....................................................................................13
Appendices




                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                         Print                     4
Executive Summary
                    Observations                                 Introduction
                                                                 This white paper presents the results of our review of the U.S. Postal Service’s Workers’ Compensation Program
                                                                 Follow-Up: Federal Employees’ Compensation Act (FECA) Reform (Project Number 14YG009HR000). We conducted this review
                                                                 to summarize FECA reform proposals presented in multiple U.S. Postal Service Office of Inspector General (OIG) reports6 and to
                                                                 provide updated Postal Service Office of Workers’ Compensation Program (OWCP) costs and liabilities.

                                                                 FECA, state governments, and the private sector all provide medical, compensation, death, and vocational rehabilitation benefits;
                               As of June 30, 2014,              however, state governments and the private sector have implemented practices to control the costs of these benefits. For
                                                                 example, state governments and the private sector limit the duration and amount of benefits, and allow settlements and buyouts
                      the estimated present value of             as well as employer-selected physicians. In addition, they use nurse case managers and predictive modeling to help return
                     workers’ compensation liability             employees to work faster, can negotiate administrative fees with third-party providers, and require the use of generic drugs.
Table of Contents




                              is about $17.8 billion.            Currently, the Postal Service pays an administrative fee and annual reimbursements7 to the U.S. Department of Labor (DOL) for all
                                                                 workers’ compensation benefits paid to or on behalf of Postal Service employees. As of June 2013, the Postal Service had about
                                                                 16,380 disabled employees on the periodic roll. The Postal Service paid $67 million in administrative fees8 and about $1.3 billion in
                                                                 workers’ compensation claims9 during chargeback year 2013.

                                                                 To align the workforce with declining mail volume, the Postal Service has decreased the number of Postal Service employees
                                                                 by about 19 percent; however, workers’ compensation outlays have increased by 35 percent since fiscal year (FY) 2008. See
                                                                 Appendix A for detailed information on workers’ compensation costs. As of June 30, 2014, the estimated present value of the
                                                                 workers’ compensation liability is about $17.8 billion.

                                                                 The Postal Service’s workers’ compensation expense has been impacted by:

                                                                 ■■ FECA not including:
Observations




                                                                             §§ Limits on duration and amount of benefits.

                                                                             §§ Settlements and buyouts of claims.

                                                                             §§ A requirement to use generic drugs.

                                                                             §§ Utilization of other cost containment practices.

                                                                 ■■ The reduced number of light/limited duty positions available due to automation and lower mail volume.

                                                                 ■■ An older workforce, which studies have shown experiences greater impairment from injuries and takes longer to recover.
Appendices




                                                                 ■■ Increased costs due to annual cost of living adjustments.

                                                                 6	 Retirement for U.S. Postal Service Employees on Workers’ Compensation (Report Number HR-MA-11-001, dated April 22, 2011); Postal Service Workers’ Compensation
                                                                    Program (Report Number HR-AR-11-007, dated September 30, 2011); and Postal Service Injury Compensation Program (Report Number HR-AR-13-004, dated
                                                                    July 25, 2013).
                                                                 7	 The Postal Service pays claims of employees and an administrative fee through a process known as “chargeback billings.”
                                                                 8	 The assessed administrative fee amount represents the period July 2013 through June 2014.
                                                                 9	 The chargeback year is the period from July 2012 through June 2013.
                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                                                 Print                                               5
Executive Summary                                                ■■ Incidents of health care fraud: From October 2011 through September 2013, OIG special agents identified and facilitated
                                                                    terminating benefits for 536 claimants and some health care providers who were committing workers’ compensation fraud.

                                                                 Over the past few years, the Postal Service has reduced the number of new claims; however, the number of fraud cases has
                                                                 increased. OIG special agents opened 592 health care fraud cases in FY 2012 and 693 in FY 2013. They obtained $51.9 million in
                                                                 medical and disability judgments and halted future losses of $289.7 million.

                                                                 Recent examples of workers’ compensation fraud include:

                                                                 ■■ A Postal Service mail carrier alleged his workplace injury induced stress, and a fear of crowds and public places, which
                                                                    severely affected his lifestyle. Surveillance and undercover operations revealed the carrier regularly participated in bowling
                                                                    tournaments and frequently traveled to casinos in Las Vegas, NV.
Table of Contents




                                                                 ■■ Ten Postal Service claimants arrested,10 in a recent OIG operation with DOL, for workers’ compensation fraud in the
                                                                    New York area. One employee claimed she could not handle 10 pounds of weight and needed assistance with such activities
                                                                    as bathing, driving, laundry, and going to the store. However, the employee was observed at the gym participating in an
                                                                    exercise class, which involved the use of weight training exercises with a barbell; exercising on a treadmill and a stair machine.
                                                                    Another employee claimed he used a motorized wheelchair while at home and a cane for ambulatory assistance in the
                                                                    community; however, he was observed hanging holiday decorations at his home, pushing a loaded shopping cart at a home
                                                                    improvement store without the aid of a wheelchair or cane, and using a snow blower to clear his driveway of snow. In addition,
                                                                    the employee did not report his outside employment, as required.

                                                                 ■■ A health care provider, who treated Postal Service employees in four states, violated the Civil False Claims Act in connection
                                                                    with claims submitted to the DOL-OWCP. The presiding judge fined and barred the provider from participation in any federal
                                                                    healthcare related programs for at least 10 years. Another provider submitted billings to federal healthcare programs for
                                                                    medical treatment not actually provided to more than 40 Postal Service employees. In this case, the presiding judge sentenced
Observations




                                                                    the provider to 5 years probation and 12 months of home confinement with electronic monitoring and ordered the provider to
                                                                    pay restitution to the Postal Service.
Appendices




                                                                 10	 One employee arrested on April 17, 2014, and nine employees arrested on May 6, 2014, for workers’ compensation fraud.
                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                                                    Print            6
Executive Summary                                                Federal Employees’ Compensation Act
                                                                 Enacted in 1916, FECA provides medical, compensation, death, and vocational rehabilitation benefits to civilian federal employees
                                                                 who sustain injuries — including occupational disease — because of their employment with the federal government. The 1974
                                                                 amendments provided continuation of pay11 (COP), authorized employees to select their own physicians, and eliminated reduced
                                                                 medical benefits after age 70.

                                                                 FECA benefits include payment for all reasonable and necessary medical treatment for work-related injury or disease. Paid
                                                                 compensation for wage loss is tax-free at 66 and two-thirds percent of the employee’s salary if there are no dependents, or
                                                                 75 percent if there is at least one dependent. FECA also provides monetary awards to injured workers for permanent impairment
                                                                 of limbs and other parts of the body, and qualified survivors receive monetary benefits if a work-related injury or disease causes
                                                                 an employee’s death. In addition, FECA provides training and job placement assistance to help injured workers return to gainful
                                                                 employment.
Table of Contents




                                                                 The DOL OWCP has the exclusive authority, except as otherwise provided by law, to administer, implement, and enforce FECA. Its
                                                                 main responsibility is to determine whether the claimant is entitled to benefits under FECA. The DOL provides direct compensation
                                                                 to providers, claimants, and beneficiaries; however, the Postal Service later reimburses the DOL for all workers’ compensation
                                                                 claims, including paying an administrative fee.

                                                                 Federal Employees’ Compensation Act Reform
                                                                 Congress has amended FECA on several occasions since its enactment in 1916; however, it has not made significant changes in
                                                                 40 years.

                                                                 State governments and the private sector have adopted the following best practices to control workers’ compensation costs:

                                                                 ■■ Maximum duration and amount of benefits.
Observations




                                                                 ■■ Settlement and buyouts.

                                                                 ■■ Employer-selected physicians.

                                                                 ■■ Return-to-work and rehabilitation programs.

                                                                 ■■ Generic drugs requirements.
Appendices




                                                                 11	 COP provides claimants with a continuation of their regular pay for up to 45 calendar days of wage loss due to disability and/or medical treatment after a job-related injury
                                                                     or illness.
                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                                                            Print                                                7
Executive Summary                                                FECA reform to include these practices, along with collection of COP in cases involving third-party liabilities, changes to the
                                                                 assessment of administrative fees, and the use of predictive modeling and nurse case managers to bring workers’ compensation,
                                                                 would better align costs with the private sector and reduce the burden on the Postal Service. The Postal Service’s average
                                                                 workers’ compensation cost per employee workhour in FY 2013 was $1.1612 compared to the private sector rate of 73 cents.13 If
                                                                 FECA was modified to include these best practices, the Postal Service could reduce its workers’ compensation expense per hour
                                                                 worked from $1.16 to 73 cents, saving more than $477 million annually.

                       The Postal Service’s average              Maximum Time and Benefit Limits
                        workers’ compensation cost               FECA does not have age or time limits for benefits. FECA provides tax-free compensation for wage loss at 66 and two-thirds
                                                                 percent of the employee’s salary if there are no dependents or a maximum of 75 percent if there are dependents. Benefits are
                            per employee workhour                paid as long as a physician certifies the condition or disability continues. Without age and compensation limits, employees lack
                                                                 incentives to return to work, which lowers productivity and increases costs. Some employees have come to rely on workers’
                              in FY 2013 was $1.16
Table of Contents




                                                                 compensation as a retirement benefit, and many receive more from FECA after they reach retirement age, than they would have
                            compared to the private              if they had earned retirement benefits on the job. For example, the Postal Service had 10,240 FECA participants age 55 and older
                                                                 and 1,892 participants age 70 and older on the periodic roll as of June 2013. Included in the 1,892 participants were two
                            sector rate of 73 cents.             Postal Service workers who were more than 100 years old.

                                                                 Our research has shown that some state statutes, which govern private sector workers’ compensation, regulate the duration and
                                                                 amount of compensation claims. For example, three of the five most populous states have maximum time limits for receipt of
                                                                 workers’ compensation benefits. Four of the five most populous states have maximum compensation rates of 66 and two-thirds
                                                                 percent tax-free and do not provide additional compensation to dependents. If the Postal Service limited the duration and amount
                                                                 of workers’ compensation benefits, employees may be motivated to return to work sooner, obtain vocational rehabilitation and
                                                                 training, or retire, thereby reducing costs.

                                                                 Settlements and Buyouts
Observations




                                                                 Benchmarking research has shown an increase in workers’ compensation case settlements in lieu of periodic payments. A
                                                                 benchmarking report the OIG contracted for in 2011 revealed that one company settled 906 of 5,400 active workers’ compensation
                                                                 cases. Another study found that settlements paid in workers’ compensation cases appear to encourage people to return to work,
                                                                 because they bring closure to the incidents. However, the Postal Service is constrained by FECA, which does not allow settlement
                                                                 of workers’ compensation cases unless they involve third-party liability. If it were allowed to settle or buy out cases, the Postal
                                                                 Service could decrease its workers’ compensation expenses, thus reducing its overall workers’ compensation liability.
Appendices




                                                                 12	 Workers’ compensation cost per workhour calculated using FY 2013 expenses and total workhours.
                                                                 13	 U.S. Bureau of Labor Statistics: Employer Costs For Employee Compensation News Release, September 2013. The Bureau of Labor Statistics’ grouping of production,
                                                                     transportation, and material moving occupations is similar to Postal Service’s work function.
                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                                                   Print                                               8
Executive Summary                                                Employer-Selected Physicians
                                                                 A majority of third-party administrators and private companies require use of their networks of selected physicians. Mandatory
                                                                 use of employer-selected physicians streamlines management of workers’ compensation cases, reduces the potential for fraud,
                                                                 and provides services that focus on returning employees to work sooner. Organizations that select the physicians that claimants
                                                                 use can monitor performance and avoid doctors who perform poorly. In addition, physicians can develop a better understanding
                                                                 of the workplace and collaborate with the patient and the employer to identify suitable return-to-work opportunities. Furthermore,
                                                                 employer-selected physicians can provide timely medical treatment, which research has shown helps employees recuperate and
                                                                 return to work sooner. FECA allows claimants to choose their own physicians, but the Postal Service could reduce its workers’
                                                                 compensation costs and its vulnerability to fraud if the law were changed to allow employer-selected physicians.

                                                                 Return to Work and Rehabilitation
                                                                 We found that both the Postal Service and the private sector use return-to-work programs to reduce the time claimants are
Table of Contents




                                                                 out of work due to employment-related injuries. FECA only allows permanently disabled employees to participate in vocational
                                                                 rehabilitation programs. However, the DOL is proposing changes to FECA that would allow all injured workers to participate in
                                                                 vocational rehabilitation services as early as 6 months after their injury, where appropriate.

                                                                 Research has shown that most employees want to return to productive employment as soon as possible. A leading best practice
                                                                 is the use of a database that identifies all limited and light-duty positions and positions that accommodate employees’ work limits
                                                                 or restrictions. Using such a database can get employees back to work sooner by finding them positions that accommodate their
                                                                 work restrictions. In another, albeit emerging, best practice, employers loan their injured workers to charitable, volunteer, and
                                                                 nonprofit organizations when restrictions prohibit productive work with the employers. These employee loaner programs allow
                                                                 injured workers to remain productive, retain the discipline of going to work every day, and provide the organizations with needed
                                                                 resources. When given these opportunities, employees often recuperate faster and return to work sooner.

                                                                 Generic Drugs
Observations




                                                                 In the private sector, benchmarking results have identified the mandatory use of generic drugs as an effective way to control
                                                                 workers’ compensation costs. The U.S. Food and Drug Administration require generic drugs to have the same active ingredient(s),
                                                                 strength, dosage form, and route of administration as the brand name drugs. Generic drugs generally cost less than brand
                                                                 name drugs. Today, nearly eight in 10 prescriptions filled in the U.S. are for generic drugs. FECA currently allows Postal Service
                                                                 employees with approved workers’ compensation claims to choose brand name or generic drugs. Postal Service management
                                                                 estimates it would save about $10 million annually if FECA required prescription of generic drugs, when available, for claimants. 

                                                                 Third-Party Liability
                                                                 The 1974 COP provision of FECA prohibits recovery of COP benefits in third-party liability cases. A third-party case exists when
                                                                 a person or organization other than the Postal Service or another federal agency is responsible for a job-related injury or illness.
                                                                 The intent of COP pay is to avoid interruption of benefits while the DOL adjudicates claims. It also provides claimants with a
                                                                 continuation of their regular pay for up to 45 calendar days of wage loss due to disability and medical treatment after a traumatic
Appendices




                                                                 injury.




                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                             Print                                      9
Executive Summary                                                Both the Government Accountability Office and the DOL have proposed FECA reform to allow recovery of COP benefits in
                                                                 third-party cases. In FY 2013, the Postal Service paid about $42 million in COP costs, about $6 million of which represent
                                                                 third-party case payments. Allowing the Postal Service to recover COP benefits from liable third parties would help reduce its
                                                                 workers’ compensation costs.

                                                                 Administrative Fees
                                                                 FECA requires the Postal Service and other agencies not funded by appropriations to pay the DOL their “fair share” of OWCP
                                                                 administrative expenses. The Secretary of Labor has the authority to set the “fair share” methodology, which is currently a
                                                                 percentage of total workers’ compensation benefits paid. These administrative fees are not negotiable and the percentage fee
                                                                 payment method provides no incentive to negotiate the fee. However, in the private sector, companies can negotiate administrative
                                                                 fees with third-party providers.
Table of Contents




                                                                 We believe the cost of initiating new claims is higher than the cost of administrating old claims since it requires more procedures.
                                                                 For example, managing a new claim is more in-depth and includes reviewing all relevant documentation, confirming workplace
                                                                 injury, determining the level of disability, calculating compensation, and assessing return-to-work opportunities. However, the
                                                                 administration of old claims is less comprehensive because in most cases, it only includes reviewing new medical evidence and
                                                                 deciding whether to continue benefits.

                                                                 Currently, there is no direct correlation between the administrative fees and actual costs to manage claims. For example, the
                                                                 Postal Service decreased its new claims from 53,604 in 2008 to 43,650 in 2013, about a 19 percent decrease; however, during the
                                                                 same period administrative fees increased by more than 27 percent (see Table 1).

                                                                 Table 1: Number of Claims and Administrative Fees by Chargeback Year

                                                                                                                 “Fair Share”
                                                                 Chargeback Year           Number of Claims      Administrative Fees
Observations




                                                                 2008                      53,604                $52,879,796
                                                                 2009                      43,989                $55,512,946
                                                                 2010                      44,762                $61,457,854
                                                                 2011                      44,698                $66,690,103
                                                                 2012                      43,268                $68,388,156
                                                                 2013                      43,650                $67,292,304
                                                                 Source: Postal Service.


                                                                 The increased administrative fees are due to the increased amount of workers’ compensation benefits paid over the past few
                                                                 years, and do not take into account the difference in administrative costs associated with managing old claims and initiating new
                                                                 ones. See Appendix A for workers’ compensation costs.
Appendices




                                                                 Further, the President recommended in his FYs 2012, 2013, and 2014 budget requests that all agencies pay their “fair share” of
                                                                 OWCP administrative costs. This recommendation would hold agencies accountable for all costs associated with their workers’
                                                                 compensation programs, but Congress has not adopted it. If all agencies paid, their full workers’ compensation expenses it could
                                                                 help ensure that current “fair share” agencies are not subsidizing the administrative costs of other agencies. If Congress required
                                                                 all agencies to pay their “fair share” and revised the methodology used to calculate administrative fees to better reflect the actual

                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                              Print                                  10
Executive Summary                                                administrative costs of managing benefits, the Postal Service could reduce workers’ compensation costs and ensure that fees
                                                                 reflect the services the DOL provides.

                                                                 Predictive Modeling
                                                                 Predictive modeling is a well-established technology in the insurance industry and is becoming a best practice for identifying and
                                                                 acting on high-severity and high-cost claims. A predictive model uses sophisticated algorithms to effectively project claim outcomes
                                                                 by level of exposure and frequency and measures the correlation of variables to claim outcomes. This type of modeling could help
                     FECA reform could help control
                                                                 the Postal Service classify cases so claims that are more complex are assigned to more experienced specialists, which could
                      workers’ compensation costs;               result in better allocation of resources. In addition, a recent study14 indicated that the number of workers’ compensation claims is
                                                                 decreasing but the number of questionable claims is increasing. Management can use predictive modeling to identify and reduce
                    however, the Postal Service must             the number of fraudulent claims, which could help the Postal Service avoid costs.
                       overcome political, employee,
Table of Contents




                                                                 Nurse Case Managers
                      and union challenges to adopt              Nurse case managers are often instrumental in helping employees return to work. They can help employees navigate paperwork,
                                                                 medical examinations, and rehabilitation. Private sector organizations usually acquire nurse case managers through outsourcing
                       practices that are common in              arrangements with vendors who employ nurses with strong occupational health backgrounds and expertise. Employers have
                                state governments                also seen efficiencies from using nurse case managers early in the process and giving them the same first notice of injury as the
                                                                 OWCP receives. For example, one benchmarked federal agency hires nurses who are only responsible for workers’ compensation
                             and the private sector.             claims. This agency, which instituted early intervention by contracted nurse case managers, reported a reduction of about
                                                                 30 percent in its OWCP chargeback costs.

                                                                 Challenges
                                                                 FECA reform could help control workers’ compensation costs; however, the Postal Service must overcome political, employee, and
                                                                 union challenges to adopt practices that are common in state governments and the private sector. FECA reform legislation has
Observations




                                                                 been proposed in each congressional session since 2011; however, to date, these reforms have not passed. Management should
                                                                 continue to work towards overcoming these challenges by educating lawmakers on the need for change and by addressing the
                                                                 questions and concerns of employees and unions.
Appendices




                                                                 14	 National Insurance Crime Bureau: Questionable Workers’ Comp Claims Report, September 24, 2013.
                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                                      Print                       11
Executive Summary   Appendix A: Workers’                         Although the Postal Service has successfully decreased its number of employees through attrition and retirement incentives, the
                                                                 cost of workers’ compensation has increased (see Figure 1).
                    Compensation Costs
                                                                 Figure 1: Comparison of Number of Employees to Workers’ Compensation Costs
Table of Contents
Observations




                                                                 Source: Postal Service.


                                                                 The number of employees decreased by 19 percent, from 765,088 in 2008 to 617,714 in 2013; however, the cost of workers’
                                                                 compensation increased by 35 percent, from about $1 billion to more than $1.3 billion.
Appendices




                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                                          Print                                    12
Executive Summary
Table of Contents




                                                                    Contact us via our Hotline and FOIA forms, follow us on social
                                                                 networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
Observations




                                                                                        or abuse. Stay informed.

                                                                                       1735 North Lynn Street
                                                                                      Arlington, VA 22209-2020
                                                                                            (703) 248-2100
Appendices




                    Federal Employees’ Compensation Act Reform
                    Report Number HR-WP-14-003 – R
                                                                                                                                          Print   13
